OIG Investigative Reports, Former President of Sports Equipment Company that Serviced School Districts Nationwide Pleads Guilty to Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
For Immediate Release
New Jersey
December 22, 2008
U.S. Department of Justice
U.S. Attorney, District of New Jersey
970 Broad Street, Seventh Floor
Newark, New Jersey 07102
Ralph J. Marra, Jr., Acting U.S. Attorney
Contact:
Michael Drewniak, Public Affairs Office
973-645-2888
Former President of Sports Equipment Company that Serviced School Districts Nationwide Pleads Guilty to Fraud
NEWARK, N.J. – The former president of a Pennsylvania company that supplied athletic
equipment and reconditioning services to scores of schools in New Jersey pleaded guilty
today to participating in fraudulent business practices including, among other things,
overcharging the schools for services, Acting U.S. Attorney Ralph J. Marra, Jr.
announced.
David Drill, 60, of Easton, Pa., the former president of Circle Systems Group, Inc., based
in Easton, admitted that the scheme involved inflated invoices, the creation of phony bid
documents from competitors and the retention of overpayments by schools. Drill also
said that he engaged in aspects of the fraud often with the knowing participation of school
officials, including athletic directors, school administrators, purchasing officials and
coaches with whom he and his sales force had fostered and maintained relationships over
many years.
The company was engaged in the business of selling and reconditioning athletic
equipment and uniforms. The reconditioning of equipment – including football helmets
and shoulder pads which accounted for a large part of the business – involved the process
of repairing, cleaning and sanitizing and sometimes repainting used athletic equipment.
A large part of Circles sales of athletic equipment and reconditioning services to high
schools, colleges and youth sports programs was in New Jersey, but in other states as
well.
Drill worked for the company from 1982 until September 2007, and became president in
1988 and was responsible for the management of Circle’s sales force. Circle Systems was
acquired by Schutt Holdings, Inc. in 2005 and has since stopped using the Circle Systems
name for that subsidiary. Schutt has cooperated fully in the investigation.
Drill pleaded guilty before U.S. District Judge Dickinson R. Debevoise to one count of
conspiracy to commit mail fraud, which carries a maximum statutory penalty of five years
in prison and a $250,000 fine. Judge Debevoise did not schedule a sentencing date due to
Drill’s continuing cooperation in the investigation.
According to the Information to which Drill pleaded guilty, others at Circle were involved
in the fraud. Also, some school officials who contracted with Circle knew or should have
known of the fraud and often participated in it by assisting Drill and others in the
fraudulent methods he used.
Marra said the investigation is continuing.
There were four essential methods to the fraud that began in the 1980s and continued into
2007, which Drill detailed during his plea and are described in the Information to which
he pleaded guilty:
1) Circles submission of fake price quotes to schools: To increase sales, Circle and its
salesmen represented to schools that if they needed two additional price quotes from
competing companies to comply with legal requirements, Circle would provide them to
justify a contract with Circle. Drill admitted that he and others produced hundreds, if not
thousands of such fake price quotes and submitted them to purchasing officials at schools
in New Jersey.
2) Fraudulent paperwork submitted with the knowledge of school purchasing
officials: Drill admitted that on hundreds, if not thousands of occasions, Circle submitted
fraudulent invoices and other paperwork to Schools, when requested to do so by School
Purchasing Officials, to hide the nature and timing of purchases by the School Purchasing
Officials. Schools often made such requests when they confronted the dilemma of having
budgeted funds for athletic equipment reconditioning but had not expended it by the end
of a fiscal year and feared not getting that money in future budgets. Drill admitted that to
fix this problem, Circle would routinely create fraudulent paperwork that made it appear
that the money had indeed been spent on reconditioning services in the current fiscal year.
The schools would then use the money budgeted for services with Circle in the next fiscal
year but have the paperwork to make it appear that the services had already been rendered
and paid for; or the schools would use the money designated during a fiscal year in that
year but on different goods or services.
3) Fraudulent inflation of invoices to schools: As a routine business practice, Circle
management authorized its employees to make gifts and donations to schools and school
purchasing officials but then sometimes reimbursed itself for the cost of those gifts by
inflating its invoices for services to those schools. In one example detailed in the
Information, a New Jersey school purchasing official asked a Circle salesman for a set of
golf clubs for himself. The salesman paid $503 for them. Circle in turn recouped not
only that cost but built in a $297 profit by fraudulently inflating by $800 an invoice to the
school for new football jersey. Drill admitted that other times Circle would submit price
quotes for goods and services to schools that turned out to be too low but then made back
its costs and profit by fraudulently inflating other invoices to those schools.
4) Circles retention of overpayments by schools: Upon receiving invoices and
statements from Circle that were strikingly similar in appearance, schools often paid twice
for the same goods and services. Circle received hundreds of duplicate payments from
schools and kept the payments. Only when a school recognize its mistake was the money
refunded. If not, then after a period of time, portions would be used for the benefit of at
least one member of Circle’s management. Between 1998 and 2007, Circle improperly
retained and converted to its own use at least approximately $500,000.00 in overpayments
from various schools with which it did business, according to the Information. Drill said
during his guilty plea that he was not aware of the amount of duplicate payments and did
not receive any of that money.
Finally, Circle misreported helmet testing data for reconditioned helmets in order to lower
Circles costs and increase its profits.
Circle was a member of the National Athletic Equipment Reconditioners Association
(NAERA), and as such, was supposed to recondition athletic helmets in accordance with
guidelines and procedures established by the National Operating Committee on Safety in
Athletic Equipment (NOCSAE). One of these guidelines was the requirement that a
reconditioner such as Circle conduct impact tests on a statistically relevant sample of
all the helmets that it reconditioned, which NAERA and NOCSAE believed to mean at
least 2 percent of all helmets reconditioned.
As a member of NAERA, Circle was allowed to place stickers on each helmet that it
reconditioned indicating that Circle had reconditioned the helmet in accordance with the
procedures and guidelines established by NOCSAE. Circle was also supposed to pay a
fee to NAERA and NOCSAE for each helmet that Circle reconditioned.
Over the years, Circle did not always follow the guidelines and procedures specified by
NOCSAE for the reconditioning of helmets. For example, Circle conducted impact tests
on less than 2 percent of the helmets that it reconditioned. Moreover, Circle submitted
false and misleading information to NAERA and NOCSAE to conceal these facts. Circle
also under-reported the number of helmets that it reconditioned so that it would pay less
in fees to NAERA and NOCSAE.
Drill admitted that he was aware that Circle engaged in this aspect of fraud and submitted
false information to NAERA and NOCSAE.
NOTICE TO POTENTIAL VICTIMS:
If you were a customer of Circle Systems Group, Inc., your organization could be a
victim in this case. If you believe that you might be a victim, please email your name,
address, phone number and a brief description of how you feel that are involved in this
case to CircleVictim@ic.fbi.gov and someone will be in contact with you.
The case is being prosecuted by Senior Litigation Counsel John M. Fietkiewicz of the
Offices Special Prosecutions Division.
Acting U.S. Attorney Marra credited Special Agents with the U.S. Department of
Education Office of Inspector General, under the direction of Acting Inspector General
Jerry G. Bridges in Washington; and Special Agents of the FBI in Newark, under the
direction of Special Agent in Charge Weysan Dun, with the Circle Systems investigation.
Defense Counsel: Joseph T. Afflitto, Sr., Esq., Wayne, N.J.
Top
Printable view
Share this page
Last Modified: 12/31/2008
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov